5395
^P^eCouHTus"
FILED

IN THE

JUN 2 3 2021

SUPREME COURT OF THE UNITED STATE: SESCEOFTHecLEfK

5th Cir. Justus

Christopher Burgess
(Your Name)

— PETITIONER

vs.
Sf.h

-

Appp.flls Court.

— RESPONDENT(S)

ON PETITION FOR A WRITOPTDERTfORARl TO
ON PETITION FOR EXTRAORDINARY WRIT OF HABEAS CORPUS TO
The United States District Court
Northern District of Texas Dallas Division
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT -OF-CERTIORARI
PETITION FOR EXTRAORDINARY WRIT OF HABEAS CORPUS
Christopher Burgess
(Your Name)
3060 FM 3514
(Address)
Beaumont, '.Texas 77705
(City, State, Zip .Code).
N/A
(Phone Number)

•

QUESTION(S) PRESENTED

1. In the interest of justice, should a 28 U.S.C. § 2255 be

..

entertained under less stringent conditions if it contains both "actial
innocence” and ineffective assistance of council” claims?
2. Why does the severity of a crime make it imposible to prove ones
innocence?'
3. Why is Meta Data not considered substantial evidence when innocence
can be established

based on the Meta Data due to the pattern it portrays?

4. Is a 28 U.S.C. § 2255 time barred when it was deposited in
prison mail box within the one year time limit, but reseaved after
the time limit due to the Mail Room's delay in requesting additional
postage?

in

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Burgess v. State,No. 50-17-00271-CR, 2018 WL 3322886, 1
(Tex.App. July 6 2018).....................................................
P.3
United States v. Burgess, 671 F.App'x 241, 241 (5th Gir. 2016)..P.3

in

i

t>

TABLE OF AUTHORITIES CITED

CASES
PAGE NUMBER
Bails treriivi Pasif'ica - Pallce^Bep*t“901 E. 2d* . 696 j. '*699 (9th Cir. 1988 )pv7
Davis v. Hill 798 F.3d. 290, 293-294 (5th Cir. 2015)
P•7
Gordon v. Watson 622 F.2d. 120, 123 £5th Cir. 1980)
p. 7
p.5
Jackson v. Virginia
U.S.
99S.Ct. 2781 (1979)
Murray v. Carrier 477 U.S. 478 106 S.Ct. 2639........
p>66,7 ,&8op
Spotville v. Cain.149 F.3d. 374, 377 (5th Cir. 1998)
p.7
United States v. Agurs 427 U.S. 97, 96 S.Ct. 2395 (_
p. 6
United States v. Johnson 327 U.S. 106, 112, 66S.Ct. 464((1946)...p.6
United States v. Walker 772 F.2d. 1172, 1176 n.9 (5th Cir. 1985).p.7
U.S. v. Adams 961 F.2d. 505, 508 (5th Cir. 1992)....
p.6
U.S. v. Armstrong 952 F.2d. 626, 629 (5th Cir. 1992)
p.5
U.S. v. Carter 117 F.3d. 262, 269(5th Cir. 1997)....
p.5

STATUTES AND RULES
Fed.R.Crim.P.11(b)(3).........
18 U.S.C. §§2252A(a)(5)(B)

p.6
P-4
p.4

28 U.S.C. §§ 2253(c)(2)...
28 U.S.C. §§ 2255...................

P-4

OTHER
5th Amendment (1791)

p.7

6th Amendment (1791)

p.7

W

TABLE OF CONTENTS

OPINIONS BELOW

1
: 2

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
4

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

5

CONCLUSION

8

INDEX TO APPENDICES

APPENDIX A 28 U.S.C. § 2255 of Petitioner

APPENDIX B

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

V

IN THE
SUPREME COURT OF THE UNITED STATES
-PETITION FOR WRIT OF CERTIOnAnT
PETITION FOR EXTRAORDINARY WRIT OF HABEAS CORPUS
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
an extraordinary writ
OPINIONS BELOW
^ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
to
the petition and is
hA reported at United States v. Burgess 671 F.App'x 241 (SfitmCir. 2016)
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1. of 10

to

JURISDICTION
[s/\ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________ _
§/] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2 of 10
J

l~

[
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment of the United States Constitution
Sixth Amendment of the United States Constitution
18 U.S.C. § 2252A(a)(5)(B)............................................
28 U.S.C. § 2253(c)(2)....................................................
28 U.S.C. § 2255 ................................................................

3 of 10

P.7
P.7
P.4
P.4
P.4

;J

\

STATEMENT OF THE CASE

Chris topher. .Michael Burgess, Federal prisoner # 47713-177.pleaded
guilty by plea bargan to possession of prepubesent -child pornography
18 U.S.C. § 2252A(a)(5)(B) and was sentenced to 180 months in prison
stacked on to statels sentence. United States v. .Burgess, 671 F.App'x 241
(5th Cir. 2016). Statels conviction of life without paroll for continuous
sexual abuse of a minor. Cf. Burgess v. State, No. 05-17-00271-CR, 2018
WL 3322886, 1 (Tex.App. July>6, 2018).
Ms. Woods (acting aittourny -) insisted on Plea dispite Mr.: Burgess'
reluctance due to his innocence and state charges. He attempted to
withdraw Guilty Plea but it was deemed untimely. The complete Discovery,
was withheld. He proceeded through the varying steps to the 28' U.S.C. §
2255 Without seccess. The 28 U.S-. C. § 2255 was deemed untimely, due to a
6 day delay caused by the unit mail room. The 28 tfcS.C. § 2255 was never
reviewed. The 28 U.S.C. § 2253(c)(2) was also denied due primarily to the
Meta Data not being substantial evidence. The attempt to correct this was
deemed untimely. No consideration.was given to the "actual innocence"
claim, or the "ineffective assistance" claim.

4 of 10

'i

REASONS FOR GRANTING THE PETITION
In accordance to the judgement given ,hMe£abDa.ta:Lisnnot
considered substantial evidence. This denies Defendant the ability
to prove "actual innocence" as the Meta Data shows automation that
proves that he did not organize the child pornography he has been
accused of possessing. The Meta Data contains three pieces of
information that are critical in this case, and those like it,;the
creation data, the last modified data, and the last accessed data.
Fact one, i£ the creation data and the last modified data of
a file are the same then the file has never been moved. This ,.2
meens that he could not have organized any bfithe illicit content
asthe plea bargan states, because the pictures* Meta Data are no
doubt the same. Even if one^file in the organozation system he
alledgedly created was thus it would disprove the theary. This
data was withheld from Mr. Burgess by not being included with the
discovery. This by itself disproves the accuracy of the plea
bargain. Fact two, Last accessed dates do not mean that the user
accessed it at that point. In this case the last accessed dates
indecates that Bittorent was accessing it due to the comparison
of all the last accessed dates which shows a steady useage over
about 36 hours. Also,- this steady stream was maintained
Regardless of the length of the vidoe. Thus the illicit data was
not being viewed by a living person. There is no evidence of the
first element that of ones knowledge.
Jackso v. Virginia ___U.S. ___ , 99 S.Ct. 2781 (1979)
6. Const. Law 266(7) U.S.C.A. Const.Amend.14
Due process requires that no person be made to suffer
the onus of a criminal conviction exept upon sufficient
proof, defined as evidence necessary to convience a
trier of fact beyond reasonable doubt of the existence
of every element of the offense.
[6] the constitutional standrd recognizes in the
Winship case was espressly phrased as one that protects
an accused against a conviction except on "proof beyond
a reasonable doubtIn subsequent cases discussing
the reasonable doubt standard, we have never departed
form this definition of the rule or from the Winship
understanding of the central purposes it serves.
U.S. v. Carter 117 F. 3d. 262, 269 ('5th Cir. 1997)
[4-6] A court cannot accept a guilty plea unless there
is:.a sufficient factual basis for the plea. U.S. v.
Armstrong, 951 F.2d. 626, 629 (5th Cir. 1992) the
5. of: 10

Factual basis must appear in the record and must be
sufficientlytspecific to be defined as criminal. U.S. V.
Adams 961 FF2d^ , 505 ,•5086 (5bh iCir •, 1992.) s; Attma£rongu;951)
F. 2d. at 629 the District Court's acceptance of a
guilty plea is a factual finding reviewable under the
clearly erroneus standard. Id/.. Also Fed. R. Crim. P. ll(b)£3)
Murray v. Carrier 477 U.S. 478, 106 S.Ct. 2639 Actual
innocent-Evidence Headnote [10] .... The more rational
infrence to draw from Congress's incorporation of a
modified version of the miscarrage of justice exception
in §§ 2244(b)(2)(B) and 2254(e)(2) is simply this: in a
case not governedby those provisions, i.e., a first iei
petition for federal habeas relief, the miscarriage of
justice exception survived the AEDPA's passage intact
and unresdricted.
Many Constitutional violations are stated in the 78 grounds of
the 28 U.S.C. § 2255 at least 37 of which are "actual innocence"
claims. As an examle of how things are done, this case shows a
grose disregard for the constitution as a whole by this court.
How wide spred this disregard goes is anyones guess.
United States v. Argurs 427 U.S. 97, 96 S.Ct. 2395(__ )
9. Although as attourney for the soverign must
prosecute the accused with earnestness and vigor, he
must always be faithful to his client's overriding
intrest that "justice shall be done"; shchattourney is
the servant of the law, the two fold aim of which is
that guilt shall not escape nor inocence suffer.
Fed.R.Crim.P.11(b)(3); The factual basis requirement
protects a defendant from pleading guilty without
realizing that his or her conduct is not within the
charge. Id Murray at 7. Habeas Corpus @= 45.3(1.50) In
extraordinary case, where constitution violation has
probably resulted in conviction of one who is actually
innocent, Federal habeas court may grant writ even in c
absence of showing of cause forcprocedural defalt.
The majority of constitutional violations are based on in
ineffective assistanve of counsel. For instance ground #62 of the
§§ 22555MS bsfWoydsa^actingnatfcQtney^yGoavinGedc.Mofc’antnth&.fccideQpite t
his innocence he could not prove it due to the severity on the
drime". Thus the pies bargain is unreliable on its face, as stated:
Id Murray at 8. Criminal Law 641.13(1) Right to a 11 .i c 11
as!Si§t|HQg of cqqnsq]. may
vigm;q<i bv qyen
egse&ibud audoprejudicial! UriitediStatas vs dohn$oma327
U.S.C106, 112, 66 S.Ct. 464 (!946); an inneffective ass
assistance clame asserts the absence of one of the
crucialiassurances that the result of the proceeding is
reliable, os finality concerns are somewhat weaker and
the appropriate standard of a proceeding itself unfair,
even if the errors of counsel cannot be shown by a nceo
6 of 10

preponderance of the evidence to have determined the ou
outcome.
What these quotes imply is that §2255 and those like it should be
entertained under less stringent conditions because it is far ies
less predudicial to Prosecution than other § 2255*s as
Prosecution should not want innocence to suffer.
In this case all that is needed is for this §2255 to be viewed is
toucOuntermand the order which invalved insuffishent postage
which was corrected promtly as to unit mail personel exepted the
missing 2 stamps. If not for this mistake his §2255 would have
been fairly viewed, and due consideration would have hopefully
been granted. Others have been time barred also due to such
Mistakes.
Gordon v. Watson 622 F.2d. 120, 123 £5th Cir. 1980)
Pro se litigants are not held to the same standards of
compliance with formal or technical pleading.srules
applied to attorneys.; Spotville v. Cain 149 F.3d. 374,
337 (5th Cir. 1998) Traditional disposition of leniency
toward Pro se litigants United stats v. Walker 772 F.2d.
1172, 1176 n.9 (5th Cir. 1985) a clear error of i-.icgeme
judgement ...upon a weighing of the relevant factors.
Davis v. Hill 798 F.3d. 290, 293-?94n(5th.Citfl5^015)
When a violation of this nature is committed by an
unrepresented litigant who corrects the error promtly
upon learning of it, as did Davis, there is an
espescially compelling case for the court to exercise
its discretion to excuse the error Id Gordin ati!23;
Balistreri v. Pasifica Police Dep't 901 F.2d. 696, 699
(9th Cir. 1988)("this court recognizes that it has a
duty to ensure that Pro se litigants do not lose there
right to a hearing on the merittsof their claim due to
ignorance of technical procedural requirements"). If hi
his evidence is excluded absent strong countervailing
factors, which we do not find here. Id murray at
Limitations Period Headnote:[15] Focusing on the merits
of a petitioner's actual-innocence claim and faking acc
account of delay in that context, rathen than treating
tJffideilneagas a threshold inquiry, is turned to the
rationale underlying the miscarriage of justice exceoti
exception i.e., ensuring that federal constitutional er
errors do not result in the incarceration of innocent
persons.
Thesd same standards should be aplied here. Without some remidy
an innocent man will continue to suffer. How many others suffer
from similar sercumstances is anyones guess. However, 45% of
inmaits in Texas are innocent according to theelnocence
Inishative. One year is ample time for a few grounds however 78
grounds requ
? Qf -j-g

grounds requirs far more resurch. IS the main reason for so many
innocence suffering needless due to an overage of grounds?
It is also the opinion of Mr. Burgess acting Pro se that the
severity should rightfully be placed at theesentencing phase not
thh guilt/innocent phase. Thus the videos and pietures themselves
should be withheld from the guilt/innocent phase at least untill
after the knowledge lelment is satisfied due to the inflamatory
nature of the crime itself. This will serve to prevent more inn
innocence from being falsely convicted and fewer will brake the
law just to get a plea deal that by rights they should not have
been forced into.
5th Amendment (1791) no persons...be deprived of life,
liberty, or property, without due process of law...
6th Amendment (1791) In all criminal prosecutions ...to
have the assistance of councel for his defence.
These quotes from the amendments are the sources for most of the
constitutional violations he seeks relief from in his 28 U.S.C. §
2255. In truth Mr. Burgess is innocent of the crimes he has been
charged with and seeks redress. He was "railroaded” by the courts
and only seeks the justus he is gauranteed by the constitution of
the United States of America.
iEdrMurray at Untimeliness-Actual Innocence-Evidence Hea
Headnote:[16] Untimeleness, although not an unyielding
ground for dismissimgsaopfetit&op, does bear on the crad
credibility of evidence proffered tos'ahow actual innoce
innocence. The standard the United States Supreme Court
adopted in schlup v. Delo is demanding. The gateway siio
should openonly when a petition presents evidence of
innocence so strong that the court cannot haveconfiiuance
confidence in the outcome of the trial unless the court
is also satisfied that the trial was free of nonnarmles
nonharml&ss constitutional error.
With 78 grounds all constitutional and 37 grounds actual innocenc
innocence claims surely some of them are nonharmless.

8 of 10

No.
IN THE
SUPREME COURT OF THE UNITED STATES
Sth Cir. Justus
Christopher Burgess
v.
5th Cir. Appeals Court
Re:Christopher Burgess
To the Honorable Justus of the Fifth Cir. Suppreme Court:
Comes now Petitioner/Pro se and respectfully askes.the
Honorable Court for In Forma Pauperis and an Extraordinary Writ.a
of Habeas Corpus. He would show a motion for leave to proceed In
Forma Pauperis, and a petition for Extraordinary Writ of Habeas
Courpus.Along with the following in support for such request:
I
The Extraortinary Writhwill be in aid of the Court's
appellate jurisdiction by supplyingga more balanced view of Pro
se litigation. A Pro se litigant in prison has issuses with the U
Unit Mail System espeshaly during Lock Down. Prisoners have no
direct access to the Mail Room or Law Library thus PostageMrauSt
be guessed. A Misjudgement in postagdeshould not be a reason to
deniy the very important 28 U.S.C. §22255 when correct postageewa
was fixed in less than a minet, and mail neverrleft thier custid^.
The intervening time should be on the Mail Room,,not Jzhe -inmare.
Also withheld evidence should forstall time limits when said
evidence can establish "actual innocence". Withheld evidence
should act as new evidence when the evidence must show Defendant
as innocent, Defendent has' never seen it-, yet due to his
innocence knows what the evidense must show.

n
TUm* exceptional circumstance of "actual innocence" should
qualify by itself, as it would help about 54% of prisoners in
Texas alown. However other circumstances do aid this. In this
§ 2255 is described withheld evidence that establishes this claim.
Everyone of the 78 grounds dipict violations to the Constitution.
1 of 2

RECEIVED
JUN 2 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

L

Certificate of Delivery
I certify under penalty of perjury that on or about the
gf
Z02J this motion and Writ under Rule 20 will be
"diposited into the prison mail system” and "that first-class
postage will be prepaid” to the best of my knowledge and belief.
Signature,
Christophefr Burgess #2118350

CONCLUSION
WHEREFORE, Petitioner, respectfully prays that this Court grant
') A
if c r
hii 28 tKSCCI § 2255 be given due consideration on the merits.
The petition j;or a

of certiorar^slKgil^ tgy^n^ed. u g

Respectfully submitted,

Christopher Burgess #2118350
Date:

1) JunB Z0t-\

Verification
I have read the forgoing Motion, Writ, and Appendix and
fierlB^ verify that the matters alleged therein are true, except
as to matters alleged on information and belief, and as to those,
I believe them to be true. I certify under penalty of perjury
that the foregoing is true and correct.
Executed at Stiles Unit, Beaumont, Texas on
Signature,
Christoptfer Burgess ‘#2118350
9 of 10
i

